 CONTROLLER STAFFING AT KEY
CALIFORNIA AIR TRAFFIC CONTROL
          FACILITIES
     Federal Aviation Administration
      Report Number: AV-2009-047
       Date Issued: April 23, 2009
           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Controller Staffing at Key                 Date:    April 23, 2009
           California Air Traffic Control Facilities
           Federal Aviation Administration
           Report Number AV-2009-047

  From:                                                              Reply to
           David A. Dobbs                                            Attn. of:   J-2
           Deputy Inspector General

    To:    FAA Acting Administrator

           This report provides the results of our review of controller staffing at three Federal
           Aviation Administration (FAA) facilities in California: the Los Angeles
           International Airport Traffic Control Tower (LAX), the Southern California
           Terminal Radar Approach Control (TRACON) (SCT), and the Northern California
           TRACON (NCT).

           We conducted this review at the request of Senator Dianne Feinstein of California.
           Senator Feinstein expressed concerns to our office about potential shortages of
           trained and experienced controllers at these locations, which are some of the
           Nation’s busiest facilities. Ensuring these air traffic control facilities remain
           adequately staffed with qualified air traffic controllers is critical to the safety and
           efficiency of the entire National Airspace System.

           Our audit objective was to evaluate FAA’s plans for ensuring adequate air traffic
           controller staffing at the three California air traffic control facilities and to offer
           recommendations as needed. We conducted this review between June 2008 and
           January 2009 in compliance with generally accepted government auditing
           standards. During this review, we visited officials at FAA Headquarters as well as
           managers and National Air Traffic Controllers Association (NATCA)
           representatives at the three facilities. Exhibit A further details our scope and
           methodology.
                                                                                    2


BACKGROUND
FAA is experiencing a long expected surge in controller attrition as the large pool
of controllers hired after the 1981 strike begin retiring. The retirement wave hit
record numbers in 2007 and 2008 and is projected to increase through at least
2012. To address this challenge, FAA plans to hire and train nearly 17,000 new
controllers nationwide through 2017. This level of hiring has not been seen since
FAA hired over 8,700 new controllers between 1982 and 1983. However, with the
surge in attrition and hiring, FAA faces an increasing risk of not having enough
fully certified controllers in its workforce—with 27 percent of the workforce now
in training compared to 15 percent in 2004.

Controllers-in-training include new hires (developmental controllers) and certified
professional controllers who are in training (CPC-ITs) because they transferred to
another facility and must learn the airspace of their new facility. Certified
professional controllers (CPC) are controllers who have achieved full certification
on all positions within their assigned area.

FAA has used staffing standard models to determine controller staffing levels
since the 1970s. Because these were historically calculated at the national level, in
2005, FAA hired an independent contractor to review air traffic staffing standards
at each air traffic control facility based on current traffic volume, airspace
complexity, number of positions, and other factors. The goal of this review was to
evaluate the existing staffing standards and develop new staffing ranges at the
facility level in light of those factors. In 2007, FAA completed its efforts to revise
the standards for towers and en route centers, including LAX, but this work is still
ongoing at large TRACONs.

LAX, SCT, and NCT are critical locations within the National Airspace System—
combined they handled nearly 4.5 million operations in 2008. As FAA begins
hiring and training the large influx of new controllers, it must focus on training
new controllers to the CPC level at major locations such as these while
maintaining a sufficient number of veteran CPCs.

 • LAX is the Nation’s fourth busiest airport traffic control tower and
   handled 659,000 operations in 2008. As of December 2008, LAX had
   49 controllers. Controller staffing over the last decade has stayed at or above
   FAA’s validated staffing range for the facility, which is 39 to 47 controllers.
   As of December 2008, 20 percent of LAX’s controller workforce was in
   training.

 • SCT is the Nation’s busiest TRACON and handled nearly 2.25 million
   operations in 2008. As of December 2008, SCT had 237 controllers. With
   the exception of 2005, controller staffing over the last decade at SCT has
                                                                                     3


   stayed at or above FAA’s un-validated staffing range for the facility, which is
   194 to 237 controllers. As of December 2008, 32 percent of SCT’s controller
   workforce was in training.

 • NCT is the Nation’s fourth busiest TRACON and handled nearly
   1.59 million operations in 2008. As of December 2008, NCT had
   170 controllers. Since NCT became fully operational in 2004, controller
   staffing has remained at or above FAA’s un-validated staffing range for the
   facility, which is 142 to 174 controllers. As of December 2008, 24 percent of
   NCT’s controller workforce was in training.

RESULTS IN BRIEF
FAA has taken steps at LAX, SCT, and NCT to offset controller attrition. These
include offering financial incentives to experienced controllers to transfer to or
remain at the three locations. Despite these actions, FAA must do more to ensure
these three critical locations have a sufficient number of fully certified controllers.
We identified four specific focus areas for FAA:

 • Making SCT and NCT a top priority in FAA’s ongoing efforts to validate
   staffing ranges at its large TRACON facilities.
 • Expanding the use of relocation and retention incentives to maintain a cadre of
   experienced controllers at LAX and SCT.
 • Providing enough instructors and other training resources at all three facilities
   to handle the influx of new controllers, especially at SCT.
 • Ensuring appropriate use of overtime hours at LAX, SCT, and NCT, which
   increased significantly over the last 2 years—by 868, 400, and 120 percent,
   respectively.

These actions are particularly critical at SCT, which is facing the most significant
staffing issues. SCT is FAA’s busiest TRACON, has the highest percentage of
existing and planned new controllers of the three facilities, and has experienced a
sharp decline in CPCs over the last 5 years. A significant issue is that SCT
expects to have over 100 controllers in training later this year—which is more than
40 percent of its workforce and could overwhelm SCT’s training capacity. That
percentage will also far exceed FAA’s overall national average of 27 percent of a
facility’s controller workforce in training.

FAA Should Make SCT and NCT a Top Priority in Its Ongoing Efforts To
Validate Staffing at Large TRACON Facilities
SCT and NCT have controller staffing ranges of 194 to 237 and 142 to 174,
respectively. While both have kept staffing levels within those ranges, FAA has
not yet validated those ranges and therefore cannot ensure they truly represent the
                                                                                 4


facilities’ needs. In 2007, FAA revised ranges for tower and en route centers
based on its independent contractor review of staffing standards. FAA expects the
contractor to complete its review of TRACON staffing ranges later this year.
However, we are concerned because, although SCT is the Nation’s busiest
TRACON and NCT is the fourth busiest, these two facilities are among the last
scheduled for review. Further, at SCT, the number of operations per controller
has increased by 19 percent since 1997. In our opinion, FAA should make these
two critical facilities a top priority for review.

FAA Should Expand the Use of Relocation and Retention Incentives To
Maintain a Cadre of Experienced Controllers, Particularly at LAX and SCT
LAX: A growing concern for LAX is retaining newly hired controllers and
attracting experienced controllers. In 2007 and 2008, LAX gained 16 new hires
and 3 experienced transfers but then lost 7 of them because they either failed
training, relocated, or chose another career. As of December 2008, LAX had
20 percent of its 49 total controllers in training—still below the national average
of 27 percent. However, because LAX will receive more new controllers in 2009
and 2010, FAA must continually work to gain experienced transfers so the facility
can maintain a proper balance of CPCs and trainees.

SCT: Retaining experienced controllers is an even more critical issue at SCT,
where the number of CPCs has sharply declined since 2004—from 236 to 161 (a
decline of 32 percent)—while the number of developmental controllers has
increased. As of December 2008, SCT had 32 percent of its 237 total controllers
in training, which is well above the national average of 27 percent. However,
FAA plans to hire 34 new controllers this year (to offset a loss of 26), which
means that percentage could climb to more than 40 percent.

NCT: At NCT, the balance of CPCs to controllers in training is not an immediate
concern. As of December 2008, the facility had 24 percent of its 170 total
controllers in training. However, as these controllers finish their training, NCT
expects to receive 46 controllers by 2010 to offset a loss of 39. Maintaining the
right balance of CPCs to trainees will be a watch area at NCT in the 2010 to 2011
time frame.

To maintain a workforce of experienced controllers, FAA has begun offering
financial incentives at selected facilities. These include relocation allowances of
up to $27,000 for controllers who transfer to LAX. FAA has also offered retention
bonuses of up to $25,000 at SCT for retirees who extend their employment for 1
year. In FY 2008, 6 controllers at LAX and 17 controllers at SCT accepted
incentives. FAA is not offering incentives at NCT. While FAA’s incentives are
clearly responsive to the rising attrition and hiring, it should expand them at LAX
and SCT to entice more experienced controllers to accept positions or defer
retirements at those two locations.
                                                                                      5


FAA Must Provide Enough Instructors and Training Resources To Handle
the Large Influx of New Controllers, Especially at SCT
While FAA must ensure that the LAX and NCT have adequate training resources
for their new controllers planned for 2010, this issue is already critical at SCT.
SCT now has 32 percent of its controller workforce in training. However, this
percentage could soon grow to more than 40 percent in FY 2009 given FAA’s
plans to add 34 new controllers to the 76 already in training. If this occurs, the
facility will have more than 100 controllers in training. We are concerned that this
will overwhelm the facility’s training resources, especially since SCT only has
9 contract instructors and 16 radar screens for use during facility training.

Training over 100 controllers will require significant resources and time.
Therefore, as the number of new controllers increases, FAA must ensure SCT has
enough instructors, classroom space (including off-site locations if needed), and
simulator tools so that managers can effectively train the high number of new
controllers. FAA should also ensure new trainees are evenly distributed
throughout the year at the facility to prevent a “bottle-neck” in controller training.

FAA Should Ensure Appropriate Use of Scheduled Overtime Hours at LAX,
SCT, and NCT

We found that overtime hours for controllers (which are paid at “time-and-a-half”)
had increased significantly at all three facilities over the last 2 years (see table 1).
Yet, according to FAA, controllers at all three facilities worked an average of less
than 40 hours per week.
                Table 1. Increased Overtime at LAX, SCT, and NCT
                                    Over 2 Years
              Facility     Overtime Hours         Overtime Hours
                              in FY 2006             in FY 2008
             LAX                  606              5,866 (+868%)
             SCT                 7,300            36,700 (+400%)
             NCT                 5,685            12,511 (+120%)

For example, at SCT, 141 of 223 controllers worked overtime during 1 pay period.
However, of those 141 controllers, 116 (82 percent) took leave during the same
pay period. Like most Federal employees, controllers may take leave during a
scheduled 6-day week but still receive overtime pay if they actually work the
scheduled overtime shift.

FAA managers at SCT stated that they must schedule overtime in advance to
ensure adequate coverage although they would prefer to call controllers in for
overtime as needed, based on traffic and weather patterns. However, they said
controllers usually do not respond to the “call-in.”
                                                                                 6


As a result, they were forced to schedule overtime in advance regardless of traffic
or weather conditions. While there are various reasons for the dramatic increases
in overtime at all three locations, the drastic increase in overtime hours may
indicate systemic problems in scheduling practices.

Our recommendations to FAA focus on actions needed to maintain a sufficient
number of certified controllers at LAX, SCT, and NCT and include a
recommendation to analyze overtime scheduling practices at all three locations to
determine if the amount of overtime is appropriate, needed, and effectively
utilized. FAA agreed with our recommendations listed on page 15.
                                                                                                                          7




               FINDINGS
               We evaluated LAX, SCT, and NCT across five areas: staffing levels, workforce
               composition, overtime worked, incentives, and hiring plans over the next 2 years.
               Table 2 below summarizes our assessment of controller staffing issues at all three
               facilities. Based on our analysis, we assigned an assessment of risk and
               corresponding timeframe for actions needed. A green rating indicates that FAA
               action will likely not be required this year or next. A yellow rating indicates that
               FAA action will be needed in the 2010 timeframe. A red rating indicates that
               immediate FAA action is needed.
                            Table 2. OIG Assessment of FAA’s Plans for Ensuring Adequate
                                       Controller Staffing at LAX, SCT, and NCT
Concern                             LAX                                   SCT                               NCT
Staff Levels




                    • At or above authorized staffing        • FAA needs to validate staffing • FAA needs to validate staffing
                      levels.                                  ranges for large TRACONs.        ranges for large TRACONs.
                    • Operations have declined.              • Operations have increased.     • Operations have remained
                                                                                                constant.

                    • Currently has 10 (20%)                 • Currently has 76 (32%)         • Currently has 41 (24%)
Composition
 Workforce




                      controllers-in-training, but will        controllers-in-training.         controllers-in-training, but will
                      change in 2010 based on hiring         • Over the national average.       change in 2010 based on hiring
                      plans.                                                                    plans.
                    • Under the national average.                                             • Under the national average.
Worked per 6-
 Day Weeks




                    • Increased by 868% since FY             • Increased by 400% since FY     • Increased by 120% since FY
  Overtime




                      2006.                                    2006.                            2006.
                    • Controllers working 33.05 to           • Controllers working 31.43 to   • Controllers working 30.88 to
                      37.37 total hours.                       36.97 total hours.               36.11 total hours.
Incentives




                    • FAA approved 6 relocation              • FAA approved 17 retention      • FAA is not offering incentives.
                      incentives in FY 2008.                   bonuses in FY 2008.



                    • Will receive 8 new controllers.        • Will receive 66 new            • Will receive 46 new
Hiring Plans Next




                    • Will lose 10 controllers.                controllers.                     controllers.
                                                             • Will lose 48 controllers.      • Will lose 39 controllers.
      2 yrs.




                    • Hiring plans will impact
                      workforce composition in 2010.         • Hiring plans will impact       • Hiring plans will impact
                                                               workforce composition in         workforce composition in
                                                               2010.                            2010.

                     No FAA action needed now             Future FAA action needed     Immediate FAA action needed

               The following discusses our analysis of these areas at each of the three facilities,
               with the exception of overtime usage, which is discussed separately.
                                                                                                    8


Los Angeles International Airport Traffic Control Tower (LAX)

LAX Staffing Levels Have Remained at or Above the Authorized Staffing
Range
LAX has been able to maintain its staffing levels well within FAA’s authorized
staffing range (validated in 2007) of 39 to 47 controllers over the last decade (see
figure 1 below). This is because LAX has basically maintained the controller
workforce level (which ranged from 40 to 46) it had during the peak years leading
up to 2001.

As of December 2008, LAX had a workforce of 49 controllers. While FAA
projects that nine controllers will retire in FY 2009 and FY 2010, FAA also
expects LAX to receive eight new hires during the same period.

                    Figure 1. LAX Controller Staffing and Air Traffic Operations
                                       FY 1997 to FY 2008
                                                                       Staff    Traffic
               60                                                                         900,000
                                               51    51      50
                                         48                                    46         800,000
               50   44    42   42   42                            44                44
                                                                         40               700,000




                                                                                                    Operations
                                                                                                    Number of
 Controllers
 Number of




               40                                                                         600,000
                                                                                          500,000
               30
                                                                                          400,000
               20                                                                         300,000
                                                                                          200,000
               10
                                                                                          100,000
               0                                                                          0
                    1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008
                                              Fiscal Years



FAA Must Retain New Controllers and Attract Experienced Controllers at
LAX To Maintain a Proper Balance of CPCs and Developmentals
During 2007 and 2008, LAX received a total of 16 new hires and 3 transferring
controllers. However, we found that over the past 2 years, LAX has lost 7 of its
19 new controllers during training, or nearly 37 percent.

New controllers left the facility because they either failed
training, chose to pursue other careers, or chose to relocate. In
addition, the facility is now having difficulty attracting and
retaining experienced controllers from lower-level facilities.
From FY 2004 to FY 2006, LAX relied on controllers who
transferred from another facility to replenish its ranks—it did not
train new hires.
                                                                                                                   9


However, from 2004 to 2008, the number of CPCs at LAX has decreased by
13 percent (six controllers). Given LAX’s controller workforce of 49, if the trend
continues, there would be fewer CPCs to handle traffic and accomplish on the job
training. Currently, 20 percent of LAX’s total controller workforce is comprised
of controllers in training, still below the national average of 27 percent (see figure
2 below). FAA is offering financial incentives to entice controllers to relocate to
LAX. To date, six controllers have accepted $27,000 in incentives to relocate to
LAX but are awaiting release from their current facility. FAA has not yet offered
incentives for retirees to remain on active duty at LAX.

                                           Figure 2. LAX Controller Staffing Composition,
                                                      FY 2004 - December 2008
                                                                                     Dev        CPCIT        CPC
                               60
  Num ber o f Con tr oller s




                               50

                               40

                               30                                                  30                   39
                                     45
                                                                                          39
                                                 42           37
                               20
                                                                                   6
                               10                                                                       3
                                                                                   10     3             7
                                     5            2           3                           2
                                0
                                    2004        2005         2006                 2007   2008       Dec-08
                                                                   Fiscal Years


Southern California TRACON (SCT)

Operations per Controller Have Increased at SCT, but FAA Has Not Yet
Validated the Facility’s Authorized Staffing Range
SCT has kept controller staffing within or
above its staffing range of 194 to 237. As of
December 2008, SCT had 237 controllers.
However, FAA has not yet validated SCT’s
staffing range and therefore cannot ensure it
truly represents SCT’s workforce needs.
FAA has hired an independent contractor to
assess facility staffing ranges and expects to complete its review of TRACONs
later this year. However, we are concerned because SCT is the Nation’s busiest
TRACON; yet, it is among the last scheduled for review. Completing this
assessment is critical at SCT because according to FAA, the number of operations
per controller has increased by 19 percent (from 8,323 in FY 1997 to 9,942 in FY
2008). This is because staffing levels dropped during that time (see figure 3
below).
                                                                                                                               10



                                    Figure 3. SCT Controller Staffing and Air Traffic Operations
                                                                 (FY 1997 - FY 2008)                    Staff     Traffic
                           350                                                                                       3,000,000
                           300      273    278             281 280    271
     C ontrollers
                                                 258                          255                                    2,500,000
     Nu mb er of

                                                                                      244
                                                                                             224 222    227 226




                                                                                                                                 O perations
                           250




                                                                                                                                 Nu mb er of
                                                                                                                     2,000,000
                           200
                                                                                                                     1,500,000
                           150
                           100                                                                                       1,000,000

                               50                                                                                    500,000
                                0                                                                                    0
                                    1997 1998 1999 2000 2001 2002 2003 2004 2005 2006 2007 2008
                                                                       Fiscal Years



SCT Is Experiencing a Large Influx of New Controllers and a Decrease in
CPCs
As shown in figure 4 below, the number of CPCs at SCT has decreased from
236 to 161 (a 32-percent decline) since FY 2004. During the same period, the
number of developmental controllers increased from 0 in FY 2004 to 52 as of
December 2008. Currently, 32 percent of the facility’s controllers are in training,
which exceeds the national average of 27 percent. Further, given FAA’s hiring
plans for FY 2009, SCT’s percentage of controllers in training could grow to more
than 40 percent.

                                      Figure 4. Composition of SCT Controller Workforce
                                                  FY 2004 to December 2008
                                                                                                  Dev       CPCIT        CPC
                         300



                         250
 Number of Controllers




                         200



                         150
                                                                                                                    161
                                                                                      173          163
                                     236                             197
                                                   216
                         100


                                                                                                                    24
                         50                                                                        19
                                                                                      16
                                                                                      38           44               52
                                                                     13
                          0          8                 8             12
                                    2004          2005               2006             2007         2008         Dec-08
                                                                          Fiscal Years
                                                                                                              11


As of December 8, 2008, FAA planned to assign 34 new controllers to the facility
during FY 2009. FAA is also projecting that SCT will lose 26 controllers during
FY 2009—ultimately resulting in a net gain of 8 controllers. However, the
addition of 34 new controllers to the 76 controllers already in training at the
facility could overload the facility’s training resources. SCT now has only
9 contract instructors and 16 radar screens for use during facility training; training
over 100 new controllers at the same time will require significant resources and
time.

As the number of new controllers increases, FAA will need to make corresponding
adjustments to SCT’s training resources to ensure it has enough contract
instructors, classroom space (including off-site locations if needed), and simulator
tools. Otherwise, it will be difficult for facility managers to effectively train the
high number of new controllers.

Our prior work has found that placing too many new controllers at a facility at one
time can overwhelm training capacities. 1 For example, in December 2007, the
Miami Center had 98 developmental controllers (or 34 percent of the facility’s
controller workforce). Facility management and the local NATCA representative
both agreed that the facility lacked the physical capacity to effectively train such a
large population of developmental controllers, even when they were evenly
distributed throughout the various stages of facility training. Consequently,
developmental controllers’ facility training was delayed at that location by as
much as 9 months. FAA must take steps to ensure this does not occur at SCT.

FAA Should Continue and Expand Incentives To Retain Experienced
Controllers at SCT
Given that SCT could have as much as 40 percent of its controllers in training this
year, FAA must continually work to ensure the facility has enough experienced
controllers. FAA initiated an incentive in 2008 where controllers eligible to retire
could request a 1-year employment extension and, if approved, receive as much as
$25,000 in cash retention bonuses. FAA has begun increasing the use of this
incentive at SCT and, as of the end of FY 2008, has approved 17 retention
bonuses. An additional two requests are pending. In our opinion, FAA needs to
continue this incentive and use other incentives, such as relocation bonuses, to
ensure the number of experienced controllers at the facility keeps pace with the
influx of new hires.




1
    OIG Report Number AV-2008-055, “Review of the Air Traffic Controller Facility Training Program,” June 5, 2008.
    OIG reports are available on our website: www.oig.dot.gov.
                                                                                                        12


Northern California TRACON (NCT)

NCT’s Controller Staffing Levels Have Remained Within the Authorized
Staffing Range, but FAA Has Yet To Validate That Range
NCT’s annual air traffic levels have remained
around 1.6 million since the facility began
operations in FY 2004. NCT handled about
1,606,500 operations in FY 2004 compared to
about 1,587,100 in FY 2008 (see figure 5
below).

Since 2004, NCT has also experienced a
10-percent decline in the number of controllers; yet, controller staffing has
remained at or above the authorized (un-validated) staffing range of 142 to 174.
Like SCT, NCT is one of the last TRACONs scheduled for review in FAA’s
staffing range assessment even though it is the Nation’s fourth busiest TRACON.
As of December 2008, NCT had a workforce of 170 controllers. FAA projects
that, over the next 2 years, NCT will lose 39 controllers but will gain 46 for a net
increase of 7.

        Figure 5. NCT Controller Staffing and Air Traffic Operations
                           (FY 2004 - FY 2008)
                         200   183                            Staff    Traffic 1,700,000
                                      173
                         180                     163        164       165
                                                                              1,600,000
                         160
                         140                                                  1,500,000
           Controllers
           Number of




                                                                                           Operations
                                                                                           Number of
                         120                                                  1,400,000
                         100
                          80                                                  1,300,000
                          60                                                  1,200,000
                          40
                                                                              1,100,000
                          20
                           0                                                  1,000,000
                               2004   2005      2006        2007      2008

                                             Fiscal Years

CPC-ITs Have Decreased and Developmentals Have Increased at NCT
When several northern California facilities were consolidated in 2004 to create
NCT, the airspace was redesigned and controllers then had to certify, or cross-
train, on new positions. This resulted in a large number of CPC-ITs in FY 2004
and FY 2005. As shown in figure 6 below, NCT has seen an increase in
developmental controllers and a decrease in CPC-ITs since FY 2006. This is a
result of those controllers completing their cross-training and the increased hiring
                                                                                                              13


of new controllers. NCT now has 24 percent of its total 170 controllers in
training—near but still under the national average of 27 percent. However, with
the planned addition of 46 new controllers by 2010, ensuring that NCT adequately
prepares its training resources will be a watch area for FAA.

                                         Figure 6. NCT Controller Staffing Composition
                                                   (FY 2004 - December 2008)
                            200
                                                                             Dev          CPCIT         CPC
                            180

                            160
    Number of Controllers




                            140   90
                                                96
                            120
                                                                                                   129
                            100                           136          130         132
                            80

                            60
                                  90
                            40                  77                                                  3
                                                                                    5
                                                                       19
                            20                             23                                      38
                                                                                    28
                                                                       15
                             0     3                       4
                                  2004         2005       2006        2007         2008           Dec-08
                                                            Fiscal Years


Overtime Hours at All Three Facilities Have Drastically Increased
During the Last 2 Years
We found that overtime hours for controllers (which are paid at “time-and-a-half”)
had increased significantly at all three facilities over the last 2 years. This would
typically indicate that controllers are overworked. Yet, according to FAA,
controllers at all three facilities worked an average of less than 40 hours each
week. In our view, this could indicate systemic problems with controller
scheduling practices. Specifically, we found that:

 • Overtime hours at LAX increased from 606 hours in FY 2006 to 5,866 hours in
   FY 2008 (an 868-percent increase). However, according to FAA, controllers at
   LAX only worked an average of between 33 and 37 hours per week.

 • Overtime hours at SCT increased from more than 7,300 overtime hours in
   FY 2006 to nearly 36,700 hours in FY 2008 (a 400-percent increase).
   However, according to FAA, controllers at SCT still worked an average of
   between 31 and 37 hours per week.

 • Overtime hours at NCT increased from 5,685 hours in FY 2006 to
   12,511 hours in FY 2008 (a 120-percent increase). However, according to
                                                                                   14


   FAA controllers at NCT only worked an average of between 31 and 36 hours
   per week.

We found that the controllers were still able to average under 40 hours per week
because most at each location took leave during the pay period when they worked
the overtime hours. That is, as long as controllers actually work their assigned
overtime shift, they can take leave during other days of that 2-week pay period.
This means they will actually work less than 6 days a week but will still receive
overtime pay for that shift.

To determine if the majority of controllers at these facilities typically follow this
practice, we analyzed a sample of randomly selected pay periods during 2008 at
LAX and SCT. For example, we found that for pay period 09 in 2008:

 • 73 percent (33 of 45 controllers) of LAX’s controllers worked overtime during
   that pay period. However, 27 (82 percent) of the controllers who worked
   overtime also took leave during the same pay period.

 • 63 percent (141 of 223) of SCT’s controllers worked overtime. However, 116
   (82 percent) of the controllers who worked overtime took leave during the
   same pay period.

Like most Federal employees, controllers may take leave during a scheduled 6-day
week and receive overtime pay if they actually work the scheduled overtime shift.

FAA managers at SCT stated that they must schedule overtime in advance to
ensure adequate coverage although they would prefer to call controllers in for
overtime as needed, based on traffic and weather patterns. However, they said
controllers usually do not respond to the “call-in.” As a result, they were forced to
schedule overtime in advance regardless of traffic or weather conditions. While
there are various reasons for the dramatic increases in overtime at all three
locations, the drastic increase in overtime hours may indicate systemic problems in
scheduling practices.

CONCLUSION
LAX, SCT, and NCT are critical locations within the National Airspace System.
Ensuring these facilities remain adequately staffed with qualified air traffic
controllers is vital to the safety and efficiency of the entire system. While FAA
has taken steps to boost staffing efforts at these locations, all three facilities are
facing increased numbers of new controllers over the next 2 years. Our analysis
found that FAA must take a number of actions to maximize its staffing efforts and
maintain a sufficient number of veteran controllers at these three key facilities.
                                                                                15


RECOMMENDATIONS
We recommend that FAA:

 1. Complete validation of the staffing ranges for SCT and NCT to ensure their
    staffing levels are sufficient to handle the volume and complexity of air
    traffic at those locations.

 2. Expand the use of relocation, retention, and other incentives to entice more
    experienced controllers to accept positions or defer retirements at LAX and
    SCT.

 3. Provide LAX, SCT, and NCT with enough contract instructors, classroom
    space (including off-site locations as needed), and simulators for the
    expected surge in new controllers—this is particularly critical at SCT.

 4. Evenly distribute the placement of new trainees to SCT throughout the year
    to avoid training “bottlenecks.”

 5. Conduct an independent analysis of overtime scheduling practices at LAX,
    SCT, and NCT to determine if the amount of overtime is appropriate, needed,
    and effectively utilized.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FAA with our draft report on March 25, 2009, and received its
response on April 10, 2009.           In its response, FAA agreed with our
recommendations and has either taken or planned acceptable corrective actions.
FAA’s entire response is included at the appendix to this report.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we are closing
recommendations 1, 2, 3, and 4 based on the actions taken by FAA. We consider
recommendation 5 addressed but open pending completion of FAA’s planned
action by December 31, 2009.

We appreciate the courtesies and cooperation of FAA representatives during this
audit. If you have any questions concerning this report, please contact me at (202)
366-6767 or Dan Raville, Program Director, at (202) 366-1405.

                                        #

cc: Martin Gertel, M-100
                                                                                16




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

We conducted the audit between June 2008 and January 2009 and visited FAA
Headquarters, the National Air Traffic Controllers Association Headquarters, and the
three California air traffic control facilities: Los Angeles Air Traffic Control Tower,
Southern California TRACON, and Northern California TRACON.

To determine if FAA has developed plans for ensuring adequate air traffic controller
staffing at LAX, SCT, and NCT, we interviewed officials from FAA Headquarters
(ATO-Finance and ATO-Terminal) and obtained, reviewed, and analyzed controller
staffing documentation. The staffing documentation included historical staffing data,
future projections for retirements and new hires, staffing composition, overtime hours,
relocation/retirement incentives, and number of operations at each facility. We
reviewed and analyzed FAA’s December 2004 Controller Workforce Plan and its
associated updates.

We also conducted site visits and interviewed FAA Air Traffic Control Managers and
the National Air Traffic Controllers Association (NATCA) representatives from each
facility and obtained, reviewed, and analyzed controller staffing documentation. The
staffing documentation included the number of on-the-job training instructors (OJTI),
controller staff composition, controllers eligible for retirement, training assets, and
retention/relocation incentives.

We also met with NATCA representatives in Washington, DC, to identify specific
concerns the union has with controller staffing at the three California facilities.




Exhibit A. Scope and Methodology
                                                          17




EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


  Name                                 Title

  Dan Raville                          Program Director

  Robert Romich                        Program Manager

  Katherine Yutzey                     Senior Analyst

  Mi Hwa Button                        Analyst

  Andrew Olsen                         Auditor

  Andrea Nossaman                      Writer/Editor




Exhibit B. Major Contributors to This Report
                                                                                              18




APPENDIX. AGENCY COMMENTS


                     Federal Aviation
                     Administration

Memorandum
Date:           April 10, 2009
To:             Lou Dixon, Assistant Inspector General for Aviation and Special Program
                Audits
From:           Ramesh K. Punwani, Assistant Administrator for Financial Services/CFO
Prepared by: Anthony Williams, x79000
Subject:        OIG Draft Report: Controller Staffing at Key California Air Traffic Control
                Facilities, Federal Aviation Administration


Thank you for the opportunity to review and comment on the findings and recommendations of
the subject report dated March 25. The FAA concurs with Recommendations 1,3,4, and 5, and
partially concurs with Recommendation 2.

The following is FAA’s response to each of the recommendations.

OIG Recommendation 1: Complete validation of the staffing ranges for SCT and NCT to
ensure their staffing levels are sufficient to handle the volume and complexity of air traffic at
those locations.

FAA Response: Concur. FAA completed validation of staffing ranges for the Southern
California Terminal Radar Approach Control (TRACON) (SCT) and the Northern California
TRACON (NCT) on March 31. Both facility staffing ranges were increased slightly over fiscal
year (FY) 2008 ranges.

OIG Recommendation 2: Expand the use of relocation, retention, and other incentives to entice
more experienced controllers to accept positions or defer retirements at LAX and SCT.

FAA Response: Partially Concur. The FAA will continue to use incentives to retain and draw
experienced personnel into SCT. Last year, the FAA successfully used incentives to retain
21 employees and attract 13 experienced personnel into SCT.

Although the FAA may offer some retention bonuses at Los Angeles International Airport Traffic
Control Tower (LAX), the agency is not planning to offer incentive bonuses to bring more staff



Appendix. Agency Comments
                                                                                               19


into the facility. The existing and projected controller levels at LAX are well within their
prescribed staffing range, and more than adequate in meeting air traffic demand.

OIG Recommendation 3: Provide LAX, SCT, and NCT with enough contract instructors and
classroom space (including off-site locations as needed), and simulators for the expected surge in
new controllers—this is particularly critical at SCT.

FAA Response: Concur. Controller training is a priority for the FAA. The agency is committed
to providing resources that ensure the most efficient and practical training methods are used. In
December 2008, the FAA instituted the facility monthly work plan. This on-going monthly plan
streamlines the process for identifying and documenting facility training needs, and allows
resources to be dispatched more efficiently across the country.

OIG Recommendation 4: Evenly distribute the placement of new trainees to SCT throughout
the year to avoid training “bottlenecks.”

FAA Response: Concur. In October 2008, Terminal Services began a process that evenly
distributes new hires through the year. This metering process offers a range of how many new
hires a facility can accommodate at one time, and the rate of acceptance.

The metering process complies with an earlier Office of Inspector General’s recommendation to
consider facility training resources when allocating new hires. For FY 2009, 134 of 292 Terminal
facilities requested grouping and time intervals for their planned new hires. Terminal Services
tracks and evaluates the metering results, and facilities are able to request adjustments to
metering as needed.

OIG Recommendation 5: Conduct an independent analysis of overtime scheduling practices at
LAX, SCT, and NCT to determine if the amount of overtime is appropriate, needed, and
effectively utilized.

FAA Response: Concur. Terminal Services is in the process of conducting an independent
analysis of overtime scheduling practices at SCT, LAX, and NCT to determine where
inefficiencies exist, and what factors are driving these issues. We anticipate a completion date of
December 31, 2009.




Appendix. Agency Comments
The following pages contain textual versions of the graphs and charts found in this
document. These pages were not in the original document but have been added
here to accommodate assistive technology.
     Controller Staffing at Key California Air Traffic Control Facilities
                    Section 508 Compliant Presentation

Table 1. Increased Overtime at LAX, SCT, and NCT Over 2 Years

At LAX, overtime hours in fiscal year 2006 were 606. In fiscal year 2008,
overtime hours at LAX were 5,866—an increase of 868 percent.

At SCT, overtime hours in fiscal year 2006 were 7,300. In fiscal year 2008,
overtime hours at SCT were 36,700—an increase of 400 percent.

At NCT, overtime hours in fiscal year 2006 were 5,685. In fiscal year 2008,
overtime hours at NCT were 12,511—an increase of 120 percent.


Table 2. OIG Assessment of FAA’s Plans for Ensuring Adequate Controller
Staffing at LAX, SCT, and NCT

We evaluated LAX, SCT, and NCT across five areas: staffing levels, workforce
composition, overtime worked, incentives, and hiring plans over the next 2 years.
Table 2 summarizes our assessment of controller staffing issues at all three
facilities.

Area 1: Staffing Levels:

   • LAX: No FAA action needed now. LAX is at or above authorized staffing
     levels, and its operations have declined.

   • SCT: Immediate FAA action needed. FAA needs to validate staffing
     ranges for large TRACONs. SCT’s operations have increased.

   • NCT: Immediate FAA action needed. FAA needs to validate staffing
     ranges for large TRACONs. NCT’s operations have remained constant.

Area 2: Workforce Composition:

   • LAX: Future FAA action needed. LAX currently has 10 (20 percent)
     controllers-in-training, but that will change in 2010 based on hiring plans.
     LAX’s percentage of controllers-in-training is still under the national
     average.

   • SCT: Immediate FAA action needed. SCT currently has 76 (32 percent)
     controllers-in-training. SCT’s percentage of controllers-in-training is over
     the national average.
   • NCT: Future FAA action needed. NCT currently has 41 (24 percent)
     controllers-in-training, but that will change in 2010 based on hiring plans.
     NCT’s percentage of controllers-in-training is still under the national
     average.

Area 3: Overtime Worked Per 6-Day Week:

   • LAX: Immediate FAA action needed. Overtime hours increased by 868
     percent since fiscal year 2006. LAX controllers are working 33.05 to 37.37
     total hours per 6-day week.

   • SCT: Immediate FAA action needed. Overtime hours increased by 400
     percent since fiscal year 2006. SCT controllers are working 31.43 to 36.97
     total hours per 6-day week.

   • NCT: Immediate FAA action needed. Overtime hours increased by 120
     percent since fiscal year 2006. NCT controllers are working 30.88 to 36.11
     total hours per 6-day week.

Area 4: Incentives

   • LAX: Future FAA action needed. FAA approved 6 relocation incentives
     in fiscal year 2008.

   • SCT: Future FAA action needed. FAA approved 17 retention bonuses in
     FY 2008.

   • NCT: No FAA action needed now. FAA is not offering incentives at NCT.

Area 5: Hiring Plans Over the Next 2 Years

   • LAX: No FAA action needed now. LAX will receive 8 new controllers
     and lose 10 controllers. Hiring plans will impact workforce composition in
     2010.

   • SCT: No FAA action needed now. SCT will receive 66 new controllers
     and lose 48 controllers. Hiring plans will impact workforce composition in
     2010.

   • NCT: No FAA action needed now. NCT will receive 46 new controllers
     and lose 39 controllers. Hiring plans will impact workforce composition in
     2010.
Figure 1. LAX Controller Staffing and Air Traffic Operations, Fiscal Year
1997 to Fiscal Year 2008

In fiscal year 1997, LAX controller staffing was 44, and LAX air traffic operations
were 767,352.

In fiscal year 1998, LAX controller staffing was 42, and LAX air traffic operations
were 786,364.

In fiscal year 1999, LAX controller staffing was 42, and LAX air traffic operations
were 771,337.

In fiscal year 2000, LAX controller staffing was 42, and LAX air traffic operations
were 781,418.

In fiscal year 2001, LAX controller staffing was 48, and LAX air traffic operations
were 783,160.

In fiscal year 2002, LAX controller staffing was 51, and LAX air traffic operations
were 637,588.

In fiscal year 2003, LAX controller staffing was 51, and LAX air traffic operations
were 630,755.

In fiscal year 2004, LAX controller staffing was 50, and LAX air traffic operations
were 646,919.

In fiscal year 2005, LAX controller staffing was 44, and LAX air traffic operations
were 653,534.

In fiscal year 2006, LAX controller staffing was 40, and LAX air traffic operations
were 653,181.

In fiscal year 2007, LAX controller staffing was 46, and LAX air traffic operations
were 672,245.

In fiscal year 2008, LAX controller staffing was 44, and LAX air traffic operations
were 659,221.
Figure 2. LAX Controller Staffing Composition, Fiscal Year 2004 through
December 2008

In fiscal year 2004, LAX had 5 certified professional controllers in training and 45
certified professional controllers.

In fiscal year 2005, LAX had 2 certified professional controllers in training and 42
certified professional controllers.

In fiscal year 2006, LAX had 3 certified professional controllers in training and 37
certified professional controllers.

In fiscal year 2007, LAX had 10 developmental controllers, 6 certified
professional controllers in training, and 30 certified professional controllers.

In fiscal year 2008, LAX had 2 developmental controllers, 3 certified professional
controllers in training, and 39 certified professional controllers.

In December 2008, LAX had 7 developmental controllers, 3 certified professional
controllers in training, and 39 certified professional controllers.


Figure 3. SCT Controller Staffing and Air Traffic Operations, Fiscal Year
1997 through Fiscal Year 2008

In fiscal year 1997, SCT controller staffing was 273, and SCT air traffic
operations were 2,272,135.

In fiscal year 1998, SCT controller staffing was 278, and SCT air traffic
operations were 2,239,477.

In fiscal year 1999, SCT controller staffing was 258, and SCT air traffic
operations were 2,290,048.

In fiscal year 2000, SCT controller staffing was 281, and SCT air traffic
operations were 2,456,065.

In fiscal year 2001, SCT controller staffing was 280, and SCT air traffic
operations were 2,359,052.

In fiscal year 2002, SCT controller staffing was 271, and SCT air traffic
operations were 2,143,429.
In fiscal year 2003, SCT controller staffing was 255, and SCT air traffic
operations were 2,075,308.

In fiscal year 2004, SCT controller staffing was 244, and SCT air traffic
operations were 2,119,851.

In fiscal year 2005, SCT controller staffing was 224, and SCT air traffic
operations were 2,119,708.

In fiscal year 2006, SCT controller staffing was 222, and SCT air traffic
operations were 2,128,347.

In fiscal year 2007, SCT controller staffing was 227, and SCT air traffic
operations were 2,216,604.

In fiscal year 2008, SCT controller staffing was 224, and SCT air traffic
operations were 2,246,877.


Figure 4. Composition of SCT Controller Workforce, Fiscal Year 2004 to
December 2008

In fiscal year 2004, SCT had 8 certified professional controllers in training and
236 certified professional controllers.

In fiscal year 2005, SCT had 8 certified professional controllers in training and
216 certified professional controllers.

In fiscal year 2006, SCT had 12 developmental controllers, 13 certified
professional controllers in training and 197 certified professional controllers.

In fiscal year 2007, SCT had 38 developmental controllers, 16 certified
professional controllers in training and 173 certified professional controllers.

In fiscal year 2008, SCT had 44 developmental controllers, 19 certified
professional controllers in training and 163 certified professional controllers.

In December 2008, SCT had 52 developmental controllers, 24 certified
professional controllers in training and 161 certified professional controllers.
Figure 5. NCT Controller Staffing and Air Traffic Operations, Fiscal Year
2004 through Fiscal Year 2008

In fiscal year 2004, NCT controller staffing was 183, and NCT air traffic
operations were 1,606,516.

In fiscal year 2005, NCT controller staffing was 173, and NCT air traffic
operations were 1,560,357.

In fiscal year 2006, NCT controller staffing was 163, and NCT air traffic
operations were 1,622,068.

In fiscal year 2007, NCT controller staffing was 164, and NCT air traffic
operations were 1,616,204.

In fiscal year 2008, NCT controller staffing was 165, and NCT air traffic
operations were 1,587,161.

Figure 6. NCT Controller Staffing Composition, Fiscal Year 2004 through
December 2008

In fiscal year 2004, NCT had 3 developmental controllers, 90 certified
professional controllers in training and 90 certified professional controllers.

In fiscal year 2005, NCT had 77 certified professional controllers in training and
96 certified professional controllers.

In fiscal year 2006, NCT had 4 developmental controllers, 23 certified
professional controllers in training and 136 certified professional controllers.

In fiscal year 2007, NCT had 15 developmental controllers, 19 certified
professional controllers in training, and 130 certified professional controllers.

In fiscal year 2008, NCT had 28 developmental controllers, 5 certified
professional controllers in training, and 132 certified professional controllers.

In December 2008, NCT had 38 developmental controllers, 3 certified
professional controllers in training, and 129 certified professional controllers.
